TITO KNOX 5-24-2021
Vv
MAGERA, SHANCHEZ NO-7257
MOTION FOR REHEARING

| requested a copy of the doctors report and recommendations the court used to commit in the start of
the process and procedure to confirm | was a danger to self or to others to grant the government
statutory authority to recommit to a institution. THERES NO RECORD,

ATTACHED is a copy of the judgement of acquittal calls into question did congress enact the framing of
this statue Title 18 4243 | ask the supreme court to send me a copy of their interpretation of this statue

Why didn’t the court follow procedures and release me in compliant with the court order once hes
shown hes not a risk to himself or others.

Where the doctor report to provide to the court I was a risk to myself or others dated before june-21-
2007.

Lkindly ask the court to revisit the search and seizure officer garner didn’t take nothing off my person
review officer graham dash camera.

| would also ask the court to review officer graham trial testimony completely false all | want is
transparency and liberty.

To the court you understand that im on a High dosage of medication which cause short and long term
derailment in the body and mind im reaching out to the best of my limited ability to address the court in
good faith in hope the court issue justice and apply the law.

| don’t need no medicine that’s forbidden by law and cause major problems
I cant even drive while on this medication

CERTIFICATION OF SERVICE

<a fer

RECEIVED
JUN 1- 2021

QFEICE OF
SUPHEME COURT B

  
       
 

 

 

__pRev. 2/01) Judgment of Acquittal
United States District Court

 

DISTRICT OF SOUTH CAROLINA
UNITED STATES OF AMERICA
JUDGMENT OF ACQUITTAL
CASE NUMBER: 6:06cr269-1

US Marshal’s Number: 13813-171

TITO L KNOX

nity as to counts jand2. ITIS ORDERED that the
e Defendant, TITO L. KNOX, be committed to a facility

found not guilty by reason of insai
\ to himself or to others.

The Defendant was
Defendant is acquitted. IT IS FURTHER ORDERED that th
for treatment and not released until it is shown that he is not a ris

  
  

Signature of Judy

Henry M. Herlon, i
tt Jr, United States Distri
Name and Title of Judicial Officer ae Liles

 

sume Zl, 2007

 
